                                           July 15, 2008


MEMORANDUM TO:             Hubert T. Bell
                           Inspector General

FROM:                      Dale E. Klein    /RA/
                           Chairman

SUBJECT:                   SPECIAL INQUIRY MEMORANDUM: “NRC’S OVERSIGHT OF
                           HEMYC FIRE BARRIERS”

This is in response to your memorandum to me of January 22, 2008, providing the results of the
Office of the Inspector General (OIG) Special Inquiry on the subject of “NRC’s Oversight of
Hemyc Fire Barriers.” As stated in the NRC’s press release of January 25, 2008 (“NRC Accepts
Inspector General Findings Regarding Hemyc Fire Barrier Testing”), the NRC has agreed that
more timely action could have been taken in investigating what turned out to be Hemyc’s limited
ability to protect important electrical systems. I conclude that the NRC should have done a
better job in several respects: (1) the limitations of early testing should have been recognized in
the 1980’s; (2) the limitations of early testing should have been discovered in the 1993 review;
(3) full-scale fire testing should have been initiated following the 1993 small-scale test results;
and (4) full-scale testing should have been completed in a more timely manner.

Your description of the history of this matter serves as a serious reminder to the agency of the
importance of timely follow-through in addressing potential safety issues. As your memorandum
reports, the NRC staff conducted a full-scale test of the Hemyc fire barrier in 2005, in which
Hemyc failed to perform for one hour as designed. The NRC staff’s follow-up actions and
current planning give me assurance that the NRC has taken appropriate steps to resolve the
issue. The staff is scheduled to complete its verification of the final resolution of the issue or the
corrective actions and compensatory measures at all affected licensees by September 30,
2008, with the exception of one facility which will be inspected after the licensee’s scheduled
corrective action completion date of December 1, 2008. I will follow closely the process for
resolution of the issue.

On a more general level, the Commission has scheduled a public briefing on fire protection
issues for July 17, 2008. I will be giving great attention to the program for voluntary transition to
the alternative fire protection rule based on Standard 805 of the National Fire Protection
Association. In addition, I assure you that I will continue to place great emphasis on the
importance of timely action on all emerging safety issues.

As your memorandum observes, the NIST test in 1993 was a small-scale screening test and
was not intended as a basis for making a final determination regarding the capabilities of the
Hemyc fire barrier. The purpose behind the NIST test was to obtain screening information on
the fire resistance characteristics of fire barrier materials other than Thermo-Lag. Substantial
staff resources were being devoted to the use of Thermo-Lag at that time, which had
demonstrated a burn-through failure mechanism. The NIST test results revealed potential
problems with the fire endurance characteristics of Hemyc and should have led the staff to take
further action at that time to obtain or perform additional tests of Hemyc and to inform affected
licensees.
                                              -2-


Similarly, more timely action should have been taken to complete full-scale testing following the
NRC’s determination in 2000 that three manufacturer qualification tests for Hemyc from the
1980’s were inconclusive for the purpose of qualifying Hemyc for certain fire barrier ratings.
While the NRC made that report public and initiated a program in 2001 to perform confirmatory
full-scale testing that was eventually completed in 2005, this testing program was not completed
in a timely manner.

The NRC staff promptly issued an Information Notice after the 2005 full-scale test indicated that
Hemyc failed to perform for one hour as rated. While the NRC did not require action or
response at that time, the issuance of the Information Notice provided a timely means of
communicating the results of the test as well as the NRC’s expectation that recipients would
review the information and consider appropriate actions. Shortly thereafter, the NRC staff also
conducted a public meeting with licensees and interested members of the public to discuss the
results of the testing and the intention to take additional regulatory action to ensure that
appropriate measures were under way.

The NRC’s Generic Letter of April 10, 2006 on “Potentially Nonconforming Hemyc and MT Fire
Barrier Configurations” requested that licensees make certain determinations within 60 days
and required a written response on the actions taken to resolve problems with Hemyc and MT
fire barriers by December 1, 2007. The Generic Letter further addressed the significance of the
test results, which had indicated that Hemyc does not meet the criteria to achieve a 1-hour fire
rating and MT does not meet the criteria for a 3-hour fire rating. As noted above, the staff is
scheduled to complete verification of the final resolution of the issue or the corrective actions
and compensatory measures at all affected licensees in the near future. Internal NRC
guidance, issued in April 2008, addresses the associated inspection activities. While there is no
specific budget for Hemyc inspections, the NRC annually budgets resources for fire protection
inspections, and the NRC’s regional offices have specific budgets for inspections of emerging
issues.

From a broader perspective, I note that the NRC’s Reactor Oversight Process helps ensure that
reactors are operating safely, and the agency conducts comprehensive fire inspections every 3
years at operating plants. The NRC’s onsite resident inspectors also inspect fire protection
controls and equipment quarterly and fire brigade training annually. Inspectors review fire
protection equipment design, operational safety programs, and the control of transient
combustibles and ignition sources. They also examine the resolution of corrective actions for
deficiencies. Fire protection issues identified by NRC inspectors will be assessed for safety
significance and documented in publicly available inspection reports.


cc: Commissioner Jaczko
    Commissioner Lyons
    Commissioner Svinicki
    R. William Borchardt, EDO
    SECY
